         REVIEW OF THE
 FEDERAL ACQUISITION SERVICE’S
    CLIENT SUPPORT CENTERS
REPORT NUMBER A090139/Q/A/P10011

        September 17, 2010
Date:         September 17, 2010

Reply To
Attn Of:      Kenneth L. Crompton
              Deputy Assistant Inspector General for Acquisition Audits,
              Acquisition Programs Audit Office (JA-A)

Subject:      Review of the Federal Acquisition Service’s Client Support Centers
              Report Number A090139/Q/A/P10011

To:           Steven J. Kempf
              Commissioner, Federal Acquisition Service (Q)

This report presents the results of our audit of the Federal Acquisition Service’s Client
Support Centers (CSCs). This audit was directed by Section 801(a) of the National
Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181) which required the
Inspectors General of the General Services Administration (GSA) and the Department
of Defense (DoD) to determine in writing whether GSA is compliant with laws and
regulations applicable to DoD procurements.

Overall, we found the CSCs compliant with the Federal Acquisition Regulation and
defense procurement requirements. However, we identified minor deficiencies in funds
management, task order award and administrative processes, as well as task order file
documentation procedures.

We included your written comments in Appendix I of this report. If you have any
questions regarding this report, please contact me at 703-603-0189.




Kenneth L. Crompton
Deputy Assistant Inspector General for Acquisition Audits
Acquisition Programs Audit Office (JA-A)


cc:     Martha N. Johnson
        Administrator (A)
                                           REVIEW OF THE
                                   FEDERAL ACQUISITION SERVICE’S
                                      CLIENT SUPPORT CENTERS
                                  REPORT NUMBER A090139/Q/A/P10011

                                                   Table of Contents


EXECUTIVE SUMMARY ................................................................................................. ii
   Purpose ....................................................................................................................... ii
   Background ................................................................................................................. ii
   Results in Brief ............................................................................................................ ii
   Recommendations ....................................................................................................... ii
   Management Response............................................................................................... iii
INTRODUCTION ............................................................................................................. 1
   Background ................................................................................................................. 1
   Objective, Scope and Methodology ............................................................................. 2
RESULTS OF AUDIT ...................................................................................................... 4
   Strengthen Controls Over Funds Management ........................................................... 4
   Enhance Oversight Over Task Order Award and Administration ................................. 5
   Develop a System of Record Policy............................................................................. 6
CONCLUSION ................................................................................................................ 6
RECOMMENDATIONS ................................................................................................... 7
MANAGEMENT COMMENTS ......................................................................................... 7
INTERNAL CONTROLS.................................................................................................. 7
APPENDICES
   Prior Client Support Center Audits ............................................................................A-1
   Memorandum of Agreement .....................................................................................B-1
   Deficiencies Identified and Applicable Criteria ......................................................... C-1
   Mid-Atlantic Region Final Report ............................................................................. D-1
   Southeast Sunbelt Region Final Report....................................................................E-1
   Greater Southwest Region Final Report ................................................................... F-1
   Pacific Rim Region Final Report .............................................................................. G-1
   National Capital Region Final Report....................................................................... H-1
   Management Comments ........................................................................................... I-1
   Report Distribution .................................................................................................... J-1 




                                                                 i
                               REVIEW OF THE
                       FEDERAL ACQUISITION SERVICE’S
                          CLIENT SUPPORT CENTERS
                      REPORT NUMBER A090139/Q/A/P10011

                               EXECUTIVE SUMMARY

Purpose

The Inspectors General of the General Services Administration (GSA) and the
Department of Defense (DoD) conducted a joint review of the Federal Acquisition
Service’s Client Support Centers (CSCs) to determine whether GSA is compliant with
defense procurement requirements. Our review focused on procurement transactions
processed by the CSCs located in the Mid-Atlantic, Southeast Sunbelt, Greater
Southwest, Pacific Rim, and National Capital regions.

Background

The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181)
directed the Inspectors General of GSA and DoD to jointly review the procurement
policies, procedures, and internal controls – as well as the administration of such
policies, procedures, and internal controls – applicable to the procurement of property
and services on behalf of the DoD. The Inspectors General are to determine in writing
whether GSA is compliant with defense procurement requirements.

Results in Brief

Overall, we found the CSCs compliant with the Federal Acquisition Regulation and
defense procurement requirements. However, we identified minor deficiencies in funds
management, task order award and administrative processes, as well as task order file
documentation procedures.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

1. Strengthen and enhance current controls over funds management to ensure that (1)
   client funds are applied to task orders as specified by the funding document(s) and
   in accordance with fiscal law; and (2) task order costs do not exceed maximum
   ceiling values for specific task order line items.

2. Increase oversight and monitoring of task order award and administrative actions.

3. Develop a system of record policy for all CSCs requiring the use of an electronic
   system to assist in maintenance and oversight of all task order files.




                                           ii
Management Response

On August 9, 2010, the Commissioner of the Federal Acquisition Service concurred with
the recommendations of the report. Management’s written comments to the draft report
are included in their entirety as Appendix I.




                                         iii
                                   REVIEW OF THE
                           FEDERAL ACQUISITION SERVICE’S
                              CLIENT SUPPORT CENTERS
                          REPORT NUMBER A090139/Q/A/P10011


                                         INTRODUCTION

The National Defense Authorization Act for Fiscal Year (FY) 2008 (Public Law 110-181)
directed the Inspectors General of the General Services Administration (GSA) and the
Department of Defense (DoD) to jointly review the procurement policies, procedures,
and internal controls applicable to the procurement of property and services on behalf of
DoD. In addition, the Inspectors General were to review the administration of such
policies, procedures, and internal controls and determine in writing whether GSA is
compliant with defense procurement requirements.

Background

In FY 2007, GSA consolidated two of its service components, the Federal Supply
Service and the Federal Technology Service to establish the Federal Acquisition
Service (FAS). During this reorganization, the Client Support Centers (CSCs) were
incorporated into the FAS’ Office of Assisted Acquisition Services (AAS) portfolio.

The AAS portfolio provides Federal agencies with assisted acquisition solutions by
utilizing several contract vehicles, including Government-wide Acquisition Contracts and
GSA Multiple Award Schedule (MAS) contracts. AAS directly interfaces with client
agencies to define requirements and prepare and manage task and delivery orders
through nine 1 regional CSCs throughout the country. Total revenues vary among the
CSCs, as shown in Table 1. DoD clients represent approximately 80 percent of the
CSCs’ total revenue.




1
 At the issuance of our last report in 2006, there were 11 regional CSCs. However, the Heartland Region
and the Northwest/Arctic Region CSCs closed by the end of FY 2008.



                                                  1
                              Table 1: FY 2009 CSC Revenues

                     Region                                    Amount
                     New England                                  $77,271,868
                     Northeast and Caribbean                      124,797,739
                     Mid-Atlantic                                 406,937,009
                     Southeast Sunbelt                            744,869,236
                     Great Lakes                                  102,287,475
                     Heartland*                                     2,962,888
                     Greater Southwest                            271,836,356
                     Rocky Mountain                                49,543,172
                     Pacific Rim                                  427,431,098
                     Northwest/Arctic*                             10,910,559
                     National Capital                             194,057,002
                     Total                                     $2,412,904,401

                   *Although this CSC closed in FY 2008, it still generated revenues
                   from existing task orders in FY 2009.

This is the fifth comprehensive review we have performed of the CSCs since 2004 (see
Appendix A). During our last review in 2006, we identified that GSA and DoD
components lacked a mutual understanding of DoD’s guidelines on: (1) the proper use
of funds across FYs; and (2) the format for interagency agreements. As a result, GSA
and DoD officials signed a Memorandum of Agreement (MOA) in December 2006 (see
Appendix B) to reach a consensus on these issues. The MOA established specific roles
and responsibilities for each agency and also contained specific action items aimed at
improving acquisition processes.

Objective, Scope and Methodology

Our objective was to assess whether the policies, procedures, and internal controls of
the FAS CSCs are administered in a manner compliant with the Federal Acquisition
Regulation (FAR) and defense procurement requirements.

To accomplish our objective, we reviewed procurement transactions processed by the
five largest revenue generating CSCs for FY 2009 2 . For each CSC, we analyzed two
random samples of task order awards and two judgmental samples of modifications
placed against existing task orders. The two sample periods reviewed were June 1,
2008, to March 31, 2009; and April 1, 2009, to September 30, 2009.

We separated the random samples of new awards into three strata (see Table 2) to
ensure we reviewed task orders of varying dollar amounts with an emphasis on larger
dollar task orders. We selected the strata based on internal control points that FAS

2
 The following five regional CSCs were reviewed: Mid-Atlantic CSC, Southeast Sunbelt CSC, Greater
Southwest CSC, Pacific Rim CSC, and National Capital Region CSC.



                                                  2
established: (1) competition requirements for service procurements over $100,000; (2)
requests for additional price discounts when MAS orders exceed the typical maximum
order threshold of $500,000; and (3) legal review requirements for procurements
exceeding $5,000,000. To emphasize procurement actions with the greatest risk, we
included all Stratum 3 task order awards in our sample.

                 Table 2: Dollar Values of Strata Used for Sampling

                 Stratum                       Dollar Value
                 1                             $100,000 - $499,999
                 2                             $500,000- $4,999,999
                 3                             $5,000,000 and above

For the risk-based judgmental sample of existing order modifications, we selected the
two largest dollar transactions from each sample period for each CSC. Overall, we
reviewed 100 task orders comprised of 16 new task order awards and 4 modifications to
existing orders for each CSC. Out of the 100 task orders reviewed, 78 were DoD orders
and 22 were non-DoD orders. The total value of all sampled task orders, including
options, was $369,378,501 (see Table 3).

                   Table 3: Dollar Value of Sampled Task Orders

                                    Number of
               Orders                                      Dollar Value
                                   Task Orders
               New                      80               $ 195,255,767
               Modifications            20               $ 174,122,734
               Totals                  100               $ 369,378,501

To analyze these task orders, we used applicable procurement laws, regulations, and
relevant GSA and DoD guidance as criteria. Our comprehensive assessments of each
CSC were summarized in individual written audit reports issued to regional
management. Regional comments, both written and oral, were considered in our final
assessments. These regional reports, together with management’s responses, are
included in their entirety as Appendices D through H.

We conducted this performance audit from March 2009 through March 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                           3
                                        RESULTS OF AUDIT

Overall, we found that GSA is compliant with Federal and applicable defense
procurement requirements. While GSA contracting and fund management officials have
made improvements in complying with the FAR and appropriations law when making
purchases on behalf of client agencies, we identified minor deficiencies that present
opportunities for improvement. Specifically, we found that GSA should strengthen
controls over funds management, enhance oversight of task order award and
administrative processes, and develop a system of record policy.

Strengthen Controls Over Funds Management

Since our last review in 2006, FAS has made significant progress in strengthening
controls over the management of client funds. Specifically, the FAS Office of the
Controller has instituted national oversight of funds, which has resulted in more timely
return of excess funds to client agencies. In addition, controls have been strengthened
in relation to the acceptance, monitoring, and reporting of client funds. While the
Agency has made these improvements, we identified additional system controls that are
necessary to properly manage client funds.

At the time of our review, the system used by FAS to manage client funds was limited to
billing funding documents on a first-in, first-out (FIFO) basis. In addition, the system
lacked the capability to identify the period of fund availability. These limitations had
resulted in invoices being billed against the oldest funding document, regardless of
whether those funds had expired. FAS addressed this issue by manually overriding the
FIFO billing procedure and monitoring funds across fiscal years, thus mitigating the risk
of improperly using expired funds.

Despite the billing enhancements by FAS, we found instances in which the controls over
funds management should be improved. During our review of a DoD task order, we
identified instances in which:

•   Annual funds dedicated to Option Year 1 services were instead used to pay for Base
    Year services occurring in the same fiscal year. While the correct fiscal year funds
    were used in this case, a bona fide needs issue 3 could occur if the funds are not
    used within the available time period.
•   Residual funds dedicated to specific line items were used to pay for services above
    the maximum ceiling amount for a different line item. Although the overall task order
    funding limit was not exceeded, improper dedication and tracking of funds for
    specific line items increases the risk that funding limits could be exceeded.
•   Funding documents indicated that funds were dedicated to a particular line item;
    however, the funds were ultimately used to pay invoices for different line items.

3
 Per Section 1502(a), Title 31, U.S.C., there must be a bona fide need for a requirement in the year the
appropriations are available for obligation. Additionally, per Section 2410a, Title 10, U.S.C., funds for
severable services must be obligated with the appropriate funding available and can begin in one fiscal
year and end in another fiscal year if the period does not exceed one year.



                                                    4
    While the correct fiscal year funds were used for payment, funds were not used in
    accordance with the client’s intentions and could lead to maximum ceiling values for
    specific line items being exceeded.

The three instances discussed above illustrate the need to further strengthen controls
over funds management. In order to prevent similar instances from occurring, FAS
management should ensure that client funds are applied to task orders as outlined by
the funding document(s) and in accordance with applicable fiscal law. In addition,
controls should be implemented to ensure that task order costs do not exceed
maximum ceiling values for specific task order line items.

Enhance Oversight Over Task Order Award and Administration

Since the initial audit report on the CSCs issued in 2004, GSA has taken constructive
measures to ensure compliance with the FAR and defense procurement requirements.
Specifically, GSA has issued guidance and provided training to contracting personnel
regarding these requirements. Additionally, in December 2006, GSA and DoD entered
into an MOA which identified 24 action items (see Appendix B) aimed at improving
acquisition processes.        Seventeen of these action items were either GSA
responsibilities or GSA/DoD joint responsibilities and seven were DoD-specific
responsibilities. Of those pertaining to GSA, all are either completed or ongoing in
nature.

FAS also established policies and procedures to ensure compliance with relevant
procurement requirements. Nevertheless, we identified deviations from these
requirements, which resulted in minor deficiencies in the areas of task order award and
administration (see Appendix C).        Examples of these deficiencies include: (1)
inadequate competition; (2) missing interagency agreements; (3) incomplete acquisition
plans; (4) improper payment of invoices; (5) unsupported Independent Government
Cost Estimates; and (6) inadequate price reasonableness determinations 4 . While these
occurrences were isolated, they are inconsistent with GSA’s goals which include
providing best value acquisition services and business solutions.

These deficiencies are not reflective of excellence in contracting and we are concerned
that absent additional management attention, there will be a recurrence of issues
identified in previous audit reports on the CSCs. It is essential that FAS be proactive in
quality control at the time of task order award and administration to prevent the
occurrence of the deficiencies discussed above. To facilitate this improvement and
provide best value solutions to client agencies, FAS should increase supervisory
oversight and monitoring of task order award and administrative actions.




4
 This list is not inclusive of all task order award and administration deficiencies found during our review.
For specifics, see “Results of Audit” section in each regional report located in Appendices D through H.




                                                     5
Develop a System of Record Policy

During our review, we found that each CSC employs its own preferred system of record
for maintaining task order files. These preferences range from a paper-based system to
an electronic system, or a blend of both. The paper-based system is a traditional
method of maintaining task order files in hardcopy format. Conversely, the electronic
system – Integrated Technology-Solutions Shop (ITSS), is web-based and stores task
order files online. The blended system combines the use of both a paper-based system
and ITSS, resulting in file documentation being housed in multiple locations.

Our audit results illustrate the benefits of using an electronic system of record, as we did
not identify any reportable documentation-related issues in a CSC that exclusively uses
ITSS. Conversely, the CSCs using paper-based or blended systems had multiple
issues with file documentation, including documents that were not dated, not current, or
were not present in the official file. Per FAR 4.8, documentation in the files shall contain
support for all contractual actions and shall be sufficient to constitute a complete history
of the task order.

Using an electronic system of record such as ITSS can assist FAS management in
strengthening controls over contract file documentation and the task order award and
administrative processes. An electronic system provides convenient access to a
centralized work environment, which allows for remote monitoring of task orders. This
capability increases the ease of supervisory oversight, which could help address the
issues identified with the task order award and administrative processes discussed in
the previous section. Additionally, an electronic system could: (1) create a file
history/chronology by automatically recording the date and time of all task order actions;
(2) provide access to the most current task order file documentation in one universal
location; and (3) mitigate the risk of incomplete task order files. To facilitate proper
documentation of official task order files and to increase the ease of task order
oversight, FAS should require the use of an electronic system to maintain task order
files.


                                      CONCLUSION

Overall, we found GSA compliant with applicable Federal and defense procurement
requirements. However, we identified opportunities for improvement in the areas of
funds management, task order award and administrative monitoring, and task order file
documentation. Although the CSCs have improved since our initial CSC report in 2004,
GSA and FAS must continue to strive to improve the AAS portfolio to not only meet
Federal and defense procurement requirements, but also to fulfill AAS’s value
proposition of providing best value to client agencies.




                                             6
                               RECOMMENDATIONS

We recommend that the Commissioner of the Federal Acquisition Service:

1. Strengthen and enhance current controls over funds management to ensure that (1)
   client funds are applied to task orders as specified by the funding document(s) and
   in accordance with fiscal law; and (2) task order costs do not exceed maximum
   ceiling values for specific task order line items.

2. Increase oversight and monitoring of task order award and administrative actions.

3. Develop a system of record policy for all CSCs requiring the use of an electronic
   system to assist in maintenance and oversight of all task order files.


                            MANAGEMENT COMMENTS

On August 9, 2010, the Commissioner of the Federal Acquisition Service concurred with
the recommendations of the report. Management’s written comments to the draft report
are included in their entirety as Appendix I.


                               INTERNAL CONTROLS

Our audit objective was to assess whether the policies, procedures, and internal
controls of the FAS CSCs are administered in a manner compliant with the FAR and
defense procurement requirements. Our evaluation of internal controls was limited to
the five CSCs that we reviewed. As discussed in the “Results of Audit” section of this
report, controls over funds management and task order award and administrative
actions should be strengthened.




                                           7
APPENDICES
                                   REVIEW OF THE
                           FEDERAL ACQUISITION SERVICE’S
                              CLIENT SUPPORT CENTERS
                          REPORT NUMBER A090139/Q/A/P10011

                                          APPENDIX A

Prior Client Support Center Audits

We have performed several audits of the Federal Technology Service (FTS)/Federal
Acquisition Service (FAS) Client Support Centers’ (CSCs’) contracting practices. Our
initial audits identified numerous improper task order awards, task order modifications,
and contract awards. However, in our later audits, we identified improvements in these
areas.

January 2004

Our first report 1 issued January 2004 focused on contracting practices in three regions.
We identified a number of inappropriate practices including improper sole-source
awards, misuse of small business contracts, allowing work outside the contract scope,
improper task order modifications, frequent inappropriate use of time-and-materials task
orders, and not enforcing contract provisions. We recommended that FTS: (1) perform
a detailed analysis of the factors contributing to the problems identified, including an
ineffective system of internal controls; (2) determine what changes are needed in the
structure, operations, and mission of the CSCs; and (3) develop additional performance
measures that promote competition and other sound procurement practices.

December 2004

Our December 2004 Compendium audit report 2 on FTS CSC contracting practices
reported on the results of our nationwide reviews. This review was requested by the
then General Services Administration (GSA) Administrator, to determine the nature and
breadth of procurement deficiencies within the FTS CSC contracting program. The
Chairman of the Senate Finance Committee requested that we also provide continuing
oversight of CSC operations to ensure that deficiencies were appropriately addressed.

Our analysis of 227 task orders awarded in Fiscal Year (FY) 2003 identified numerous
improper contracting practices, such as inadequate competition, lack of support for fair
and reasonable pricing, improper task order modifications, and unjustified time-and-
materials contracts. This review also included a limited analysis of 105 task orders
awarded in FY 2004. For those task orders, we generally found improvement as the


1
  “Audit of Federal Technology Service’s Client Support Centers,” Audit Report Number
A020144/T/5/Z04002, dated January 8, 2004.
2
  “Compendium of Audits of the Federal Technology Service Regional Client Support Centers,” dated
December 14, 2004.



                                              A-1
result of recently enhanced management controls put in place in the CSCs. Although in
some regions, we found several of the same issues identified in our review of 2003
procurements. Based on the comprehensive recommendations in our January 2004
report, no further overall recommendations were deemed necessary.

June 2005

Our June 2005 Compendium audit report 3 on FTS CSC controls reported on the results
of our nationwide reviews in response to Section 802(a) of the Ronald W. Reagan
National Defense Authorization Act for FY 2005 (Public Law 108-375). The Act required
the Inspectors General of GSA and the Department of Defense (DoD) to review each
CSC and determine in writing whether the CSC is compliant, not compliant, or not
compliant, but making significant progress toward becoming compliant with defense
procurement requirements. We determined 11 of the 12 regional CSCs reviewed to be
not compliant with procurement regulations, but making significant progress toward
becoming compliant. The European CSC was deemed compliant in that we identified
only minor deficiencies.

September 2006

Our September 2006 Compendium audit report 4 on FTS CSC controls reported on the
results of our nationwide reviews in response to Section 802(a) of the Ronald W.
Reagan National Defense Authorization Act for FY 2005 (Public Law 108-375). The Act
required the Inspectors General of the GSA and DoD to review each CSC and
determine in writing whether the CSC is compliant, not compliant, or not compliant, but
making significant progress toward becoming compliant with defense procurement
requirements. We determined that the 11 regional CSCs reviewed were compliant.
However, we found some minor procurement compliance deficiencies in several of the
regional CSCs. These deficiencies were isolated cases, were not pervasive, and did
not indicate a pattern of non-compliance. We recognized that, at the time of our review,
GSA and DoD components lacked a clear understanding of DoD’s guidelines on: (1) the
proper use of funds across fiscal years and (2) the format for interagency agreements.
However, we determined that the CSCs generally met the relevant regulations
contained in the Federal Acquisition Regulation and provided in GSA guidance. At that
time, we noted that the GSA Chief Acquisition Officer, officials from FAS, and DoD
procurement officials continued to work on the development of consistent policies and
procedures.




3
  “Compendium of Audits of Federal Technology Service Client Support Center Controls,” dated June 14,
2005.
4
  “Compendium of Audits of Federal Technology Service Client Support Center Controls,” dated
September 29, 2006.



                                               A-2
                                  REVIEW OF THE
                          FEDERAL ACQUISITION SERVICE’S
                             CLIENT SUPPORT CENTERS
                         REPORT NUMBER A090139/Q/A/P10011

                                               APPENDIX B

Memorandum of Agreement


                         MEMORANDUM OF AGREEMENT (MOA)
                                    BETWEEN
                             DEPARTMENT OF DEFENSE
                                       AND
                         GENERAL SERVICES ADMINISTRATION
          BACKGROUND: The General Services Administration (GSA) is charged by statute to provide
         real property, personal property and services to all federal agencies. The services provided by
          GSA are not subject to the Economy Act, they are provided under the authority of the Federal
          Property and Administrative Services Act of 1949 (FPASA). Some of the services provided by
         GSA are mandatory sources of supply, most are not. The Department of Defense (DoD) is the
         single largest customer of GSA. DoD utilizes all of GSA's contract vehicles and services. There
         has never been an agreement between DoD and GSA on the roles and responsibilities of each
          respective agency in terms of providing services or in using the services provided. This MOA
          and Action Plan identify roles and responsibilities for both DoD and GSA. Much of what is set
           forth below reflects work that has already begun, this document memorializes those actions.

             OBJECTIVE: DoD and GSA share a single objective of providing best value goods and
           services, in a timely manner, in support of the warfighter. To achieve this objective both DoD
                            and GSA agree that we must achieve Acquisition Excellence.

             AGREEMENT: In order to achieve Acquisition Excellence, DoD and GSA agree to work
                                              together to:

         1. Ensure that sole source justifications are adequate when used in connection with a contract or
                             order either issued by DoD or by GSA in support of DoD.

        2. Ensure that Statements of Work (SOW) or Performance Work Statements (PWS) are complete
         when used in connection with a contract or order either issued by DoD or by GSA in support of
                                                     DoD.

          3. Ensure that Interagency Agreements (IAs) between DoD and GSA for work to be performed
              by GSA on behalf of DoD describe the work to be performed and any other applicable
                                                requirements.

                                     4. Develop standardized content for IAs.

          5. Ensure that price reasonableness determinations are completed on every contract or order
                                either placed by DoD or by GSA on behalf of DoD.

           6. Ensure that acquisition practices across GSA are consistent and applied consistently with
                                                    GSA policy.




                                                    B-1
                   7. Ensure that contract surveillance and oversight requirements are defined, adequate and
                implemented when used in connection with a contract or order either issued by DoD or by GSA
                                                       in support of DoD.

                    8. Ensure that funding oversight/management is adequate when used in connection with a
                              contract or order either issued by DoD or by GSA in support of DoD.

                   9. Ensure that contracts or orders either issued by DoD or by GSA in support of DoD fully
                               comply with the requirements of the Anti-Deficiency Act (ADA).

                     10. Ensure that acquisition planning is done before and after work is assigned to GSA.

                  11. Ensure that a DoD contacting officer reviews work before the work is accepted by GSA.

                  12. Ensure that DoD customers provide quality Military Interdepartmental Purchase Requests
                          (MIPRs) (or other comparable documents) to GSA for assisted acquisitions.

                13. Ensure that pricing on GSA contract vehicles and the services it provides represents the best
                                               value on a contractlorder basis.

                 14. Ensure that GSAYsfe e structure keeps its cost recovery consistent with existing guidance
                          and that it is the lowest possible commensurate with the service provided.

                  15. Ensure that adequate price competition is obtained for contracts or orders either issued by
                  DoD or by GSA in support of DoD in accordance with statutory and regulatory requirements.

                   16. Ensure sufficient contractor oversight is performed to detect potential non-performance
                   andlor non-compliance issues and ensuring that contractor past performance is documented
                   properly and in a timely manner for contracts or orders either issued by DoD or by GSA in
                                                         support of DoD.

                    17. Ensure requirements are stated in "performance based" terms to the maximum extent
                   possible, consistent with statute and regulation in connection with a contract or order either
                                          issued by DoD or by GSA in support of DoD.

                   18. Ensure training and education opportunities are made available to GSA Client Support
                                               Centers and their DoD customers.

                 19. Ensure timely and accurate data is reported in the Federal Procurement Data System-Next
                 Generation (FPDS-NG) in connection with a contract or order either issued by DoD or by GSA
                                                      in support of DoD.

                 20. Define information requirements and then ensure DoD customers are provided with timely
and accurate reports on GSA assisted acquisition support in connection with a contract or order issued by GSA in support of DoD.




                                                            B-2
21. Ensure funds provided GSA by DoD in excess of contract requirements are deobligated in a
timely manner and such results are reported to DoD customers in connection with a contract or
                          order issued by GSA in support of DoD.

   22. Ensure and foster open lines of communication between DoD and GSA leadership and
               promoting "Acquisition Excellence," within the two organizations.

     As partners, DoD and GSA recognize the need to collaborate on Interagency Acquisition
 requirements. As individual organizations, each have specific responsibilities in all parts of this
   plan to ensure that all acquisitions conducted by DoD utilizing GSA contract vehicles or on
 behalf of DoD by GSA contracting officers are compliant with statute, regulation and applicable
     policy. Collectively, the two organizations have the ability and expertise to ensure that all
   contracting actions are done properly, in compliance with all applicable law, regulation and
policy and in the best interests of the taxpayer. GSA values greatly the support that it provides to
 DOD and the tremendous additional leverage that DOD adds to GSA's buying power on behalf
   of all agencies. DoD is committed to sound acquisition planning and to providing GSA with
  clear directions regarding what it wants acquired on its behalf. GSA is committed to ensuring
that contracting actions done for and on behalf of DOD are of the highest quality, best value, and
   enhance DODYs abilities to achieve its mission while also providing for more effective and
                             efficient acquisitions for the American people.

 Attached is an Action Plan that more specifically defines DoD and GSA's respective roles and
responsibilities with regard to the agreements above. This chart may be modified periodically to
  update those roles and responsibilities without changing the 'agreements herein. A quarterly
     meeting will be held with DoD and GSA senior leadership to evaluate and address the
        effectiveness of this plan and identify emerging Interagency Acquisition issues.

                                           signed by
                                         Emily Murphy
                                    Chief Acquisition Officer
                                 General Services Administration
                                        Date: 12/6/2006

                                            signed by
                                         Shay D. Assad
                          Director, Defense Procurement & Acquisition
                                      Policy, OUSD(AT&L)
                                     Department of Defense
                                     Date: 12/4/2006




                                            B-3
                                                   Action Items
                                       Action               Date         MOA
                                                                          Item
   1. GSA will issue Acquisition Letter( s), supplements or Acquisition        Begin: January 2007 and       1-11
                     Alerts, as necessary, related to the final IG findings.           ongoing
        2. GSA will develop video tape and on-line training for all GSA 11 02s. Begin: August 2006 1-11
Make available and leverage existing learning and job support assets on                Posting completed January
                the GSA Center for Acquisition Excellence and integrate into DAD            1,2007
                learning and job support assets and repositories as appropriate.
   3. GSA will use its Procurement Management Reviews (PMRs) to                Begin: January 2007 and       1-10
                review and identify deficiencies and areas of weakness as identified in ongomg
                DoD and GSA IG reports, and the GSA CAO will issue a PMR Items of
                Interest memo to the F AS Commissioner, copy to the relevant GSA
                                       Regional Administrators.
   4. DoD will use the Intradepartmental Task Force on Interagency             Complete: March 2007          1-12
                Acquisitions (AT&L, DDSD(C)), established in May 2006, to evaluate
                the IPR, MIPR process. Report findings and recommend corrective
                                       actions as necessary.
           5. DoD will revise DoD Instruction 4000.19 "Interservice and Complete: September 2007
                     Intragovemmental Support" (August 9, 1995) as necessary.
  6. DoD DSD AT &L will issue a policy memorandum to require a DoD Complete: December 2006                  1 0-12
           contracting officer review of each acquisition greater than $500,000 is to
                be placed on contract by a non-DoD contracting officer (effective
                                             January 2006).
 7. DoD DSD AT &L will issue a policy memorandum establishing the Complete: February 2007                  1-4, 6-9
                DoD policy on contract administration roles and responsibilities when,
                     purchasing goods or services through non-DoD agencies.
 8. DoD/DAD will evaluate and revise existing course materials as             Complete: June 2007          7,8, 12
                necessary on bona fide need, appropriation law, and proper acquisition
                planning, and contract administration for assisted acquisitions
    9. GSA and DoD will jointly issue a memorandum to emphasize proper Complete: February 2007                10
                acquisition planning when the Department utilizes contract vehicles of
                            GSA or contract support provided by GSA to DoD.
 10. GSA and DoD will jointly develop standardized content for                Begin: January 2007          1-4,6-9,
Interagency Agreements. Special emphasis areas will include:                 Complete: March 2007         12, 13,21
                .           Identified roles and responsibilities of DoD and GSA
                     .           Justification for sole source procurements
                            .          Quality assurance surveillance plans
                            .          Statements of work requirements
                            .          Fair and reasonable price determination
           .         Funding oversight/management, including the timely deobligation
                                                  of excess funds.
      11. GSA and DoD will execute a Memorandum of Agreement (MOA) Complete: December 2006
           between DoD and GSA that establishes specific roles and responsibilities
                                       for interagency acquisitions
      12. GSA and DoD will allow DoD access to GSA's Acquisition                 Complete: February 2007
                                       Planning Wizard etool




                                                    B-4
           13. GSA will conduct comprehensive training for the Regions.           Begin: January 2007 18
  14. GSA will commence standardized quarterly data reporting to DoD                Begin: April 2007 and14,17,19
               (First quarter FY 2007 data), inclusive of fees paid (value added ongOIng and 20
                                             proposition) by DoD to GSA.
     15. GSA will perform comprehensive review of targeted GSA schedules               Begin: January 2007 13
          to ensure competitive market pricing has been established.             Complete September 2007
     16. GSA will perform follow-on review of compliance with DoD Begin: February 2007 and                  15
                    competition requirements, including Section 803 2002 NDAA.            ongoing
17. DoD DSD AT &L will issue a policy memorandum establishing the                 Complete: January 2007         16
                       DoD policy on roles and responsibilities related to the proper capture of
                       past performance information in the federal past performance data base
                              (Past Performance Information Retrieval System) (PPIRS)
             18. DoD will issue a memorandum to:            Complete: January 2007            16, 17, 21
                     .           emphasize the need to use "performance based" requirements to
                                             the maximum extent possible
                    .            emphasize holding contractors accountable for non-performance
                                                          and
                       .            emphasize the need to deobligate funds in a timely manner.
           19. GSA and DoD will conduct collaborative training in all GSA Begin: June 2007              18
                                                        Regions
20. GSA and DoD will collaborate on all policy memos, Acquisition.                Begin: November 2006 and       22
              Letter, Alerts, training and related guidance as related to Interagency          ongOIng
                                                   Acquisitions (IA)
21. FAI and DAD will identify and make available performance-based                Begin: January 2007 and        17
              acquisition training and education opportunities and related collaborative       ongOIng
                                                       resources
22. Conduct monthly DoD and GSA meetings to evaluate and address                  Begin: August 2006 and         22
                    the effectiveness of this plan and identify emerging Interagency      ongOIng
                                                   Acquisition issues
           23. Jointly develop standardized reporting requirements outside of Begin: January 2007 19
                                          FPDS-NG. Complete: March 2007
    24. GSA commences standardized quarterly data reporting to DoD (to                February: 2007 and 20-21
              include OSD Comptroller) inclusive of uncommitted fund balances,                 ongOIng
                   amounts obligated, amounts expended, and expired funds.




                                                   B-5
                                           REVIEW OF THE
                                   FEDERAL ACQUISITION SERVICE’S
                                      CLIENT SUPPORT CENTERS
                                  REPORT NUMBER A090139/Q/A/P10011

                                                  APPENDIX C

Deficiencies Identified and Applicable Criteria

The deficiencies outlined below are not inclusive of all issues found during our review of the Client
Support Centers. For specifics on all deficiencies, refer to the regional reports included as
Appendices D through H.

      Deficiency Identified                   Criteria                      Explanation and Applicability
                                                                   This FAR citation requires fair opportunity for
Inadequate Competition: Request
                                  Federal Acquisition Regulation   multiple award contracts. A limited time period to
for Proposal (RFP) Timeframe
                                  (FAR) 16.505                     respond to the RFP provides an advantage to the
was Unreasonably Limited
                                                                   incumbent.
                                  June 6, 2008 Office of Federal   This memorandum emphasizes the importance of
                                  Procurement Policy (OFPP)        clear lines of responsibility between the agencies
Missing Interagency Agreements    Memorandum, “Improving the       entering into an interagency acquisition. The
                                  Management and Use of            responsibilities of each party must be described
                                  Interagency Acquisitions”        in an interagency agreement.
                                                                   This FAR citation outlines the required contents
Incomplete Acquisition Plans      FAR 7.105
                                                                   of written acquisition plans.
                                                                   This FAR citation states that the Government
Improper Payment of Invoices      FAR 52.232-3
                                                                   shall pay the contractor for services performed.
                                                                   This FAR citation requires a determination that
Unsupported Independent
                                                                   the total price is fair and reasonable. An
Government Cost Estimates         FAR 8.405-2
                                                                   unsupported IGCE should not be relied upon to
(IGCEs)
                                                                   support fair and reasonable pricing.
Inadequate Price                                                   These FAR citations require a price evaluation
Reasonableness                                                     concluding that an order represents best value
                                  FAR 8.404, FAR 8.405-2
Determinations: No Best                                            and results in the lowest overall cost alternative
Value Determination                                                to meet the Government’s needs.
Inadequate Price                                                   This FAR citation requires an evaluation of the
Reasonableness                                                     level of effort and the mix of labor proposed to
                                  FAR 8.405-2
Determinations: Level of                                           perform a specific task in order to determine price
Effort/Labor Mix Not Evaluated                                     reasonableness.
                                  June 6, 2008 OFPP
Incomplete Interagency            Memorandum, “Improving the       This memorandum outlines the requirements of
Agreements                        Management and Use of            an interagency agreement.
                                  Interagency Acquisitions”
                                                                   This FAR citation requires the documentation in
General Documentation
                                  FAR 4.801                        the task order file to constitute a complete history
Deficiencies
                                                                   of the transaction.




                                                         C-1
                                  REVIEW OF THE
                          FEDERAL ACQUISITION SERVICE’S
                             CLIENT SUPPORT CENTERS
                         REPORT NUMBER A090139/Q/A/P10011

                                              APPENDIX D

Mid-Atlantic Region Final Report


            The Review of the Federal Acquisition Service's Client Support Center Mid-Atlantic Region,
            report number A090139/Q/3/P10003 issued on June 4, 2010 can be found in its entirety at
                                http://www.gsaig.gov/auditreports/reports/A0901
                                              39_2.pdf. If you have
            any   questions please contact Ken Crompton at 703-603-0189.




                                                      D-1
D-2
D-3
D-4
D-5
D-6
                                    REVIEW OF THE
                            FEDERAL ACQUISITION SERVICE’S
                               CLIENT SUPPORT CENTERS
                           REPORT NUMBER A090139/Q/A/P10011

                                                  APPENDIX E

Southeast Sunbelt Region Final Report

                      The Review of the Federal Acquisition Service's Client Support Center Southeast
          Sunbelt Region, report number A090139/Q/4/P10004 issued on June 4, 2010 can be found in its entirety at
                                        http://www.gsaig.gov/auditreports/reports/
                  A090139_3.pdf. If you have any questions please contact Ken Crompton at 703-603-0189.




                                                          E-1
E-2
E-3
E-4
E-5
E-6
E-7
                                  REVIEW OF THE
                          FEDERAL ACQUISITION SERVICE’S
                             CLIENT SUPPORT CENTERS
                         REPORT NUMBER A090139/Q/A/P10011

                                                APPENDIX F

Greater Southwest Region Final Report


            The Review of the Federal Acquisition Service's Client Support Center Greater Southwest Region
                              , report number A090139/Q/7/P10006 issued on June 7, 2010
                  can be found in its entirety at http://www.gsaig.gov/auditreports/reports/A090139_
                    4.pdf. If you have any questions please contact Ken Crompton at 703-603-0189.




                                                        F-1
F-2
F-3
F-4
F-5
F-6
F-7
F-8
F-9
                                     REVIEW OF THE
                             FEDERAL ACQUISITION SERVICE’S
                                CLIENT SUPPORT CENTERS
                            REPORT NUMBER A090139/Q/A/P10011

                                                   APPENDIX G

Pacific Rim Region Final Report


                                 The Review of the Federal Acquisition Service's Client Support
                                     Center Pacific Rim Region, report number A090139/
                     Q/9/P10008 issued on June 21, 2010 can be found in its entirety at http://www.gsaig.gov
         /auditreports/reports/A090139_5.pdf. If you have any questions please contact Ken Crompton at 703-603-0189.




                                                           G-1
G-2
G-3
G-4
G-5
G-6
G-7
G-8
G-9
G-10
G-11
                                 REVIEW OF THE
                         FEDERAL ACQUISITION SERVICE’S
                            CLIENT SUPPORT CENTERS
                        REPORT NUMBER A090139/Q/A/P10011

                                               APPENDIX H

National Capital Region Final Report




                            The Review of the Federal Acquisition Service's Client Support
                              Center National Capital Region, report number A090139/Q
                             /W/P10005 issued on June 4, 2010 can be found in its entirety
                at http://www.gsaig.gov/auditreports/reports/A090139_6.pdf. If you have any questions
                                    please contact Ken Crompton at 703-603-0189.




                                                       H-1
H-2
H-3
H-4
H-5
H-6
H-7
                            REVIEW OF THE
                    FEDERAL ACQUISITION SERVICE’S
                       CLIENT SUPPORT CENTERS
                   REPORT NUMBER A090139/Q/A/P10011

                                         APPENDIX I

Management Comments




                                  GSA Federal Acquisition Service

                                           August 9 2010

                        MEMORANDUM FOR KENNETH CROMPTON
           DEPUTY ASSISTANT INSPECTOR GENERAL FOR ACQUISITION AUDITS (JA-A)

                                  FROM: STEVEN J. KEMPF
                                      COMMISSIONER
                              FEDERAL ACQUISITION SERVICE (Q)

              SUBJECT: GSA Draft Report, "Review of the Federal Acquisition Services'
                       Client Support Centers" (report number A090139)

                    FAS has reviewed the draft audit report and has no additional
                         comments. Thank you very much for considering the
                   comments FAS previously provided. FAS concurs with the three
                 recommendations in the report. FAS has started developing action
                      plans to address the recommendations. Concurrences are
                     shown on the official file or by the correspondence received
                      from the program offices which are attached to the official
                           file. Please call me at (703) 605-5400 if you have
                  any questions. Your staff may contact Kirk Martinelli at (703) 605-
                      5432 or kirk.martinelli@gsa.gov for additional information.

                                   cc: Mr. Tehodore R. Stehney
                           Assistant Inspector General For Auditing (JA)




                                                I-1
                                 REVIEW OF THE
                         FEDERAL ACQUISITION SERVICE’S
                            CLIENT SUPPORT CENTERS
                        REPORT NUMBER A090139/Q/A/P10011

                                       APPENDIX J

Report Distribution


                                                                               Copies
Commissioner, Federal Acquisition Service (Q)                                    3

Regional Commissioner, Federal Acquisition Service
      (3Q, 4Q, 7Q, 9Q, QW)                                                       5

Acting Controller, Federal Acquisition Service (QB)                              1

General Counsel (L)                                                              1

Assistant Commissioner, Assisted Acquisition Services,
       Federal Acquisition Service (QF)                                          1

Office of the Chief Financial Officer (B)                                        2

Director, Internal Control and Audit Division (BEI)                              1

Assistant Inspector General for Auditing (JA, JAO)                               2

Regional Inspector General for Auditing (JA-3, JA-4, JA-7, JA-9, JA-W)           5

Assistant Inspector General for Investigations (JI)                              1

Regional Inspector General for Investigations (JI-3, JI-4, JI-7, JI-9, JI-W)     5

Deputy Assistant Inspector General for Acquisition Audits (JA-A)                 1




                                            J-1
